-
November 14, 2011


CONFIDENTIAL
Inspector General,
Administrator ofthe
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389

                      AMERICAN RECOVERY AND REINVESTMENT ACT
                                MANAGEMENT LETTER




                      U.S. Small Business Administration
We have audited the consolidated financial statements of the
thereon dated November 14,
                                                                                      U.S. Small Business Adnistration
(SBA),as of September 30, 2011 and 2010, and for the years then ended, and have issued our report
                                2011.   Our audit included tests of certain transactions and system
enhancements related to SBA’s implementation of the American Recovery and Reinvestment Act of
2009 (Recovery Act). We conducted our audit in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB)Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, as amended. In plalming and performing our Fiscal Year 2011 audit, we considered the
SBA’s intemal control over financial reporting (intemal control) as a basis for designing our auditing
procedures for the purpose of expressing our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the SBA’s intemal                      control.
                                                                                      Accordingly, we
do not express an opinion on the effectiveness of the SBA’s intemal control.
During our audit, we noted a certain matter involving internal control that is presented for your
consideration related to the implementation of the Recovery                    Act.
                                                                    This comment and recommendation,
which has been discussed with the appropriate members of management, is intended to improve
intemal control or result in other operating efficiencies and is summarized in Exhibit The status of
prior year comments is presented in Exhibit         II.                                                    I.
In addition, we identified certain deficiencies in internal control that we consider to be significant
deficiencies, and communicated them in our Independent Auditors’Report dated November 14,                       2011.
Our audit procedures were designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that may exist.
We aim, however, to use our knowledge of the SBA’s organization gained during our work to make
comments and suggestions that we hope will be useful to you.
We would be pleased to discuss this COl1Unent and recommendation with you at any time.
This communication is intended solely for the information and use of the Office of Inspector General;
OMB,the Gove11Ul1ent Accountability Office, the U.S. Congress, and SBA management, and is not
intended to be and should not be used by anyone other than these specified parties.



 KPMG- LL’"P
 Very truly yours,




                                KPMG LLP Is a Delaware limited lIabHity partnership,
                                the U,S. member firm of KPMG International Coopl’fat1ve
                                ("KPMGlnternational"),aSwi$$entity.
                                                                                              Exhibit I
                            U.S. SMALL BUSINESS ADMINISTRATION
                                  American Recovery and Reinvestment Act
                                       Management Letter Comment
                                                 FY 2011

INADEQUATE CONTROLS OVER THE 504 LOAN POOL TRANSACTION ENTRYPROCESS

During our walkthrough of the American Recovery and Reinvestment Act of 2009 (Recovery Act)
Section 503 - 504 First Mortgage Lien Pool Program, we detennined the Office of Financial Assistance
(OFA)does not have documented controls to ensure that the Fiscal Transfer Agent’s (Colson)monthly
upload of transaction details for each 504 loan pool into the OFA’s Electronic Transaction (E-TRAN)
System is correct and reliable.

According to a Financial Analyst in the OFA, while there is a review process over the entry and upload of
the monthly transaction details into the E-TRAN System, the OFA has not formally documented the
review process.

A lack of properly documented internal control regarding the electronic transfer of financial data !fom
one automated system to another increases the risk of invalid and/or incorrect loan transaction details
being recorded in the system and included in the SBA’s financial statements.

We recommend the OFA Director:
1.    Develop, document, and implement policies and procedures regarding the review and approval over
     the entry and upload of 504 first mortgage lien pool transactions.

Management’s Response:
The SBA’s management concurs with the finding and recommendation.




                                                                                                          I
                                                                                          Exhibit II
                                 U.S. Small Business Administration
                                    Status of Prior Year Comments
                                                 FY2011


           Fiscal Year 2010 Comments                            Fiscal Ycar 2011 Status
-,.-..
         Recovery Act Management Letters
Improper Allotment of American Recovery and Resolved
Reinvestment Act of 2009 Apportionments
Lack of Documentation and Incorrect Accounting     Resolved




                                                                                                  1
